Mayer Brown LLP
1999 K Street, N.W.
Washington, DC 20006-1101
United States of America
T: +1 202 263 3000
F: +1 202 263 3300
mayerbrown.com

July 22, 2020
VIA ELECTRONIC FILING AND US MAIL

T: +1 202 263 3220
F: +1 202 263 5220
apincus@mayerbrown.com

The Honorable Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, NE
Washington, D.C. 20543
Re:

Andrew J. Pincus

Nestlé USA, Inc. v. Doe, No. 19-416, and
Cargill, Incorporated v. Doe, No. 19-453

Dear Mr. Harris:
On behalf of the parties in the above-referenced consolidated cases, I respectfully request
a fourteen-day extension of time for the filing of petitioners’ opening briefs and the joint appendix,
to and including August 31, 2020. Respondents’ counsel has consented to this extension.
I also respectfully request a fourteen-day extension of time for the filing of respondents’
brief, to and including October 14, 2020. Petitioners’ counsel have consented to this request.
Thank you for your consideration of these requests.
Sincerely,

Andrew J. Pincus

Mayer Brown is a global services provider comprising an association of legal practices that are separate entities including
Mayer Brown LLP (Illinois, USA), Mayer Brown International LLP (England), Mayer Brown (a Hong Kong partnership)
and Tauil & Chequer Advogados (a Brazilian partnership).

